                            UNITED STATES DEPARTMENT OF EDUCATION
                                                 OFFICE OF INSPECTOR GENERAL

                                                                                 OPERATIONS INTERNAL AUDIT TEAM


                                                     March 22, 2007

Raymond Glass
Senior Principal Contracts Administrator
Computer Sciences Corporation
7700 Hubble Drive
Lanham, MD 20706


Reference:      Closure of Audit to Determine the Accuracy of Amounts Billed to the U.S.
                Department of Education Under the Education Network Contract (GS-35F­
                4381G) by Computer Sciences Corporation
                Control Number: ED-OIG/A19-H0003

Dear Mr. Glass:

This letter advises you of the results of the survey phase of our audit of the amounts billed under
the Department of Education (Department) Network (EDNet) contract. The objective of our
review was to determine the accuracy of amounts billed to the Department under the EDNet
contract by Computer Sciences Corporation (CSC). The scope of our review included Category
C billings from May 1, 2005 to September 30, 2006.

During our survey, we obtained an understanding of CSC’s billing process, sources of billing
data, and the related flow of data between applicable timekeeping systems, accounting systems
and invoices. We reviewed Defense Contract Audit Agency audit reports regarding CSC’s
internal controls related to applicable timekeeping and accounting systems. We reviewed a
sample of employees billed under Category C of the EDNet contract and verified that labor hours
billed reconciled to data in CSC’s systems. We verified that labor rates applied on invoices for
the employees in our sample agreed to the rates specified in the EDNet contract. We also
reviewed supporting documentation related to all other direct costs billed on Category C
invoices. Our work was performed in accordance with generally accepted government auditing
standards appropriate to the scope of the review described above.

During the course of our review, nothing came to our attention that would lead us to believe that
amounts billed under Category C of the EDNet contract were inaccurate. Consequently, we are
terminating our audit.

Our review was made for the limited purpose described above and would not necessarily disclose
all material weaknesses pertaining to amounts billed to the Department under the EDNet
contract.

The termination of this audit does not preclude further reviews of this or similar areas by the
OIG in the future, nor is our review to be construed as a substitute for any other reviews required
by law, license, or accreditation. Also, the termination of this review does not preclude the
Department from taking action concerning any aspect of the processes reviewed.
         Our mission is to ensure equal access to education and to promote educational excellence throughout the Nation.
Audit Closeout Letter
ED-OIG/A19-H0003


We wish to express appreciation for the cooperation and assistance extended by your staff during
the review. Should you have any questions regarding this review, please contact me at (202)
245-6941. No response to this letter is required.


                                                    Sincerely,



                                                    Michele Weaver-Dugan, Director /s/
                                                    Operations Internal Audit Team




cc:	   William Vajda, Chief Information Officer, U.S. Department of Educatio n
       Glenn Perry, Director, Contracts and Acquisition Management, U.S. Department of
       Education
       Sally Budd, Audit Liaison Officer, Office of the Chief Information Officer, U.S.
       Department of Education
       Cynthia Bond-Butler, Audit Liaison Officer, Office of the Chief Financial Officer, U.S.
       Department of Education
       Charles Miller, Supervisor, Post Audit Group, U.S. Department of Education
